contributions and documentation of corrective actions under the Communications Act.
This additional information is available upon request from our office.

This report presents the conclusions of the OIG. The findings and recommendations
contained in this report do not necessarily represent CPB management’s final position
on these matters. CPB management will make final management decisions on the
recommendations in this report in accordance with CPB’s audit resolution procedures.

Based on KNME’s response to the draft report, we consider recommendations 1-5 and
6c unresolved. Based on KNME’s corrective actions, we consider recommendations
6a-b resolved but open pending CPB’s management decision accepting KNME’s
corrective actions.




                                           2
                                  BACKGROUND
KNME is an unincorporated entity operating under a co-license issued by the Federal
Communications Commission to the University of New Mexico (UNM) and Albuquerque
Public Schools (APS). The station was created through a joint powers agreement
between UNM and APS. The station first went on air in May of 1958. Its mission is to
inform, engage, and connect New Mexico’s diverse communities, reflecting their
interests and needs through quality programming, services, and on-line content that can
be accessed anytime, anywhere.

KNME operates two full power television stations each providing two programming
streams for a total of four streams. Channel 5.1 is the main KNME programming
channel and Channel 5.2 is an all Spanish programming service channel. KNME was
the first television station in New Mexico to broadcast digitally on UHF Channel 35 in
late 2001. KNME also generates revenue by providing uplink services to the PBS
system, as well as to commercial clients.

CSG award amounts are determined by the NFFS reported by a station on its AFR.
The CSG calculation process starts with amounts appropriated for the television CSG
pool adjusted by the base grant, distance and local service grant amounts. The funds
that remain are called the Incentive Grant Pools. The Incentive Rate of Return (IRR) is
calculated by dividing the Incentive Grant Pools by the total amount of NFFS claimed by
all television stations in the system. The IRR is then multiplied by a station’s reported
NFFS to calculate the incentive award amount of the station’s total CSG. There is a two
year lag between the reported NFFS and CPB’s calculation of the fiscal year’s CSG
award amount. To illustrate, CPB used the NFFS claimed on KNME’s FY 2008 AFR to
determine the amount of its FY 2010 CSG award to KNME.

KNME’s annual CSG awards totaled $3,130,751 ($1,000,694 in FY 2008, $994,323 in
FY 2009 and $1,135,734 in FY 2010). Each CSG grant can be spent over a two year
period. The FY 2010 CSG can be spent over the period from October 1, 2009 through
September 30, 2011. KNME’s fiscal year covers the period July 1st through June 30th of
each year.

CPB’s cash payments to KNME totaled $3,467,377 for the period July 1, 2007 – June
30, 2010 for all CPB grants, as listed in Exhibit A. KNME recognizes revenues when
the funds are spent. Upon receipt CPB cash receipts are recorded as deferred
revenues. When they are subsequently spent the deferred revenues are cleared and
the funds are recognized as revenues and reported on that fiscal year’s AFR. As a
result, Exhibit A cash receipts can be recognized as revenues over multiple fiscal years
depending upon when the funds are actually expended. KNME’s FY 2008 – 2010 AFRs
reported total CPB revenues of $3,189,980.

KNME’s AFRs reported total revenues of $24,618,359 per Exhibits B – D. KNME
reported total NFFS of $21,212,289 as presented in Exhibits E - G.



                                            3
                             RESULTS OF REVIEW

We examined KNME management’s assertions of compliance with CPB’s CSG
agreement terms, Financial Reporting Guidelines for reporting NFFS, Certification of
Eligibility requirements, and Communications Act requirements for the period July 1,
2007 – June 30, 2010. We examined CSG and other CPB grant revenues and
expenses. Management is responsible for KNME’s compliance with CPB’s
requirements. Our responsibility is to express an opinion on management’s assertions
about its compliance based on our examination.

Our examination was conducted in accordance with the Government Auditing
Standards for attestation engagements, and accordingly, included examining, on a test
basis, evidence of KNME’s compliance with those requirements and performing such
other procedures as we considered necessary. We believe that our examination
provides a reasonable basis for our opinion.

Our examination disclosed the following issues of noncompliance with CPB’s CSG grant
agreement requirements, NFFS financial reporting requirements, Certification of
Eligibility requirements, and Act requirements.

  •   over-stated NFFS of $1,059,026 resulting in excessive CPB CSG grant payments
      of $112,810, classified as funds put to better use for reporting purposes;
  •   questionable CSG grant expenses of $18,000 for a transaction that did not
      augment the station’s capability to expand the quality of its services to its
      community in compliance with grant requirements;
  •   CPB’s Fiscal Stabilization grant and other nonprofit revenues were improperly
      reported on its FY 2010 AFR: and
  •   noncompliance with statutory provisions of the Communications Act for open
      meetings and establishing operating procedures.

In our opinion, except for the noncompliance items listed above, KNME has complied
with CPB’s Financial Reporting Guidelines, Certification Requirements for Station
Grants Recipients, CSG General Provisions & Eligibility Criteria, and Communications
Act for the reporting periods ending June 30, 2008 - 2010.




                                          4
                      FINDINGS AND RECOMMENDATIONS

Reporting Non-Federal Financial Support

Our examination found that KNME claimed NFFS revenues on its FYs 2008 – 2010
AFRs that could not be supported or were not eligible to be claimed as NFFS totaling
$1,059,026. As a result of these over-statements, CPB made excessive payments of
$112,810 to KNME during FYs 2010 – 2012, as presented in the following table. We
classified the $112,810 as funds put to better use for reporting purposes, because the
funds paid to KNME could have been distributed to other public broadcasting entities.

                            Calculation of Overpaid CSG Funds

           NFFS Categories             FY 2008       FY 2009      FY 2010         Total

          Total NFFS Claimed           $7,153,068    $7,205,261   $6,853,960   $21,212,289

          Revenue Categories
     Indirect Administrative Support    $215,862      $228,508     $247,701      $692,071
     Trade Underwriting                   17,483        94,980       83,274       195,737
     State Revenues                       45,519       123,348        2,351       171,218

        Total Ineligible Revenue        $278,864      $446,836     $333,326     $1,059,026
     Incentive Rate of Return           0.094188      0.108000     0.114860

          CSG Overpayment                $26,266       $48,258      $38,286      $112,810
Further, details concerning the unsupported and unallowable NFFS revenues are
discussed below.

      Over-stated Indirect Administrative Support

KNME claimed $4,852,740 of indirect support as NFFS on its AFR’s for FYs 2008 -
2010. The indirect support was based on using the federally approved indirect rate
adjusted by KNME to 24.04%. Our review of KNME’s direct cost base used to calculate
the indirect costs claimed included PBS dues of $2,953,833. Both CPB’s guidelines
and KNME’s federally approved indirect cost rate call for adjustments to a grantee’s
costs to establish an equitable base to calculate indirect costs. For example, the federal
approved indirect rate, established by the Federal Department of Health and Human
Services, recognized the need to adjust the direct cost base for sub-contractor
expenses over $25,000 a year. While CPB’s guidelines did not specifically address
adjustments for large payments made to third parties for something like PBS dues, such
payments are similar to subgrantee payments. Including PBS dues in the base used to
calculate indirect costs resulted in over-stated NFFS of $692,071.

CPB’s AFR, Schedule B instructions specified adjustments to a station’s total expenses
as presented in Exhibits B - D. These adjustments included capital outlays,
depreciation, amortization, etc. as presented on Schedule B, Lines 1b.1-1b.7. KNME’s

                                                 5
approved federal indirect cost plan specified that total direct costs shall exclude
equipment, rental expenditures, charges for patient care, tuition remission, rental cost of
off-site facilities, scholarships, and fellowships, as well as, the portion of each subgrant
and subcontract in excess of $25,000.

The intent of these adjustments is to ensure that the direct cost base used to calculate
indirect costs only reflects the grantee’s direct costs that received benefits from the
university’s facilities and administrative services (e.g., accounting, legal, information
technology, facilities, etc). Payments for PBS dues, like payments to subgrantees, do
not receive the same level of services from the university’s various overhead activities
to apply the full indirect cost rate to these costs. The only university services involved in
paying PBS dues would be invoice processing, bill payment, and related accounting
activities.

Applying the federally approved rate adjustment for subgrantee expenses in excess of
$25,000 to the PBS dues, we calculated that NFFS was over-stated by $692,071 as
presented in the following table.

                                    Over-Stated NFFS

        Description          FY 2008          FY 2009          FY 2010          Total

   PBS Dues                    $922,927           $975,534      $1,055,372     $2,953,833
   Adjustments                   25,000             25,000          25,000         75,000

      Adjusted Dues            $897,927           $950,534      $1,030,372     $2,878,833
   Federal Rate                 24.04%             24.04%          24.04%

     Over-stated NFFS          $215,862           $228,508       $247,701        $692,071

Allowing KNME to include an annual amount of $25,000 for PBS dues in its direct cost
base still allows KNME to claim $6,010 per year for indirect support to process PBS
dues. This is consistent with federal practices even though KNME only made four
payments a year to PBS.

       Inadequately Documented Trade Underwriting Revenue

Our review of claimed in-kind contributions found a lack of documentation to support the
total amount claimed of $195,737 on Schedule C of the AFRs. CPB guidelines require
that adequate documentation be obtained from donors of the value of the contribution
and evidence that the donations were received. Based on the lack of documentation,
NFFS was over-stated by $195,737 for in-kind contributions.

Section 5.6 of CPB’s FY 2009 Financial Reporting Guidelines provides three specific
criteria that an in-kind contribution must satisfy to be eligible as NFFS: 1) it must meet
CPB’s valuation requirements; 2) it must meet CPB documentation requirements; and
3) the station would typically need to purchase the contributed good or service had it not
been donated.

                                              6
More specifically, the guidelines require the following:

   •   In-kind contribution must be recorded at fair value at time of donation based on
       donor’s usual and customary fees charged to a paying customer for equivalent
       good or services.

   •   Documentation of an in-kind contribution must be obtained from the donor, e.g.,
       an invoice or letter from the donor which independently documents the
       contribution, includes a description, and date(s) of donation. This document
       should also specify the fair value, the method of valuation, and the donor’s intent
       to contribute. Further, such documentation should be on official business
       stationary and be signed by the donor.

   •   The items donated must be for items that are normally incurred by the station in
       carrying out its public broadcasting activities. In other words, the station must
       normally purchase the goods and services donated to claim it as NFFS.

Section 2.5.4 of CPB’s 2010 Financial Reporting Guidelines further clarified that, “trade
underwriting agreements or contracts do not satisfy CPB’s documentation for all in-kind
contributions claimed as NFFS. A trade underwriting agreement is a promise to give
that confirms only the intent to trade an in-kind contribution; it does not demonstrate that
an in-kind contribution was actually received by the station. Instead, Grantees need to
secure and retain documentation from the donor that is tantamount to a receipt for the
goods or services it received and claimed as NFFS.”

Our examination of the in-kind contributions claimed on Schedule C, itemized in Exhibit
H, found a lack of adequate documentation to support these contributions. We could
not verify that CPB’s three-fold criteria were met based on the documentation provided.
Although KNME subsequently obtained letters from the donors, dated in 2012, to
support the values claimed, we can only accept documentation that meets the intent of
Section 2.5.4 to obtain documentation from the donor when the services were received.
We have summarized the documentation deficiencies in the following table.

                                 Documentation Deficiencies

                         Description of Deficiency                    Number   Amount
   Trade agreement without signature                                    14       $86,226
   Trade agreement signed without description of services provided      9         45,966
   No documentation                                                     2         22,780
   Trade agreement signed but no evidence items were received           4         22,565
   Advertisement promoting fundraising (not allowable revenue)          2         10,000
   In-kind contribution supported by e-mail without donor signature     3          6,200
   No trade agreement; hotel receipt without explanation                1          2,000
                    Total In-Kind Contributions Tested                  35      $195,737




                                                  7
Without adequate supporting documentation at the time the goods and services were
received, we could not attest to the accuracy and eligibility of the in-kind contributions
claimed.

       Unsupported State and College Revenues

Our examination of state and college revenues reported on Schedule A, Lines 4 through
6 of the AFRs, found 7 of 62 transactions tested did not meet CPB’s Financial Reporting
Guidelines for reporting NFFS totaling $171,218, as detailed in Exhibit I. The initial
documentation provided to support an additional 22 transactions tested was inadequate,
however, after performing additional procedures we were able to verify the eligibility of
the amounts claimed.

CPB’s FY 2008 Financial Reporting Guidelines for Preparing the Annual Financial
Report (AFR), Section 5.2: Completing AFR Schedule A, Direct Revenue, states that all
revenue must meet the appropriate source, form, purpose and recipient criteria to be
included as NFFS. Section 3: NFFS – Minimums for CSG Eligibility, Statutory Definition
and Reporting Criteria, states that a public broadcasting entity must meet the following
criteria for the payment revenue to be included as NFFS:

       Source – Must be a state, any agency of political subdivision of a state, an
       educational institution or organization (college, university, school or other
       academic institution) or a nonprofit entity.
       Form – Must take the form of appropriations and-or contract payments in
       exchange for specific public broadcasting services or materials.
       Purpose – Must be for services or materials related to any activity of the public
       broadcast station.
       Recipient – Must be a public broadcasting entity on behalf of a public broadcast
       station or stations.

The criteria for qualified sources and purposes were updated in the FYs 2009 and 2010
Financial Reporting Guidelines. The new criteria limited the qualifying source to a state,
any agency or political subdivision of a state, or an education institution (college,
university, school or other academic institution). The new criteria eliminated nonprofit
organizations as a qualifying source. The new criteria also limited eligible purposes to
payments for services or materials with respect to the provision of educational or
instructional television or radio programs. This change eliminated payments for “any
activity” of a public broadcasting station.

Exhibit I details the basis for questioning reported state NFFS revenues. Chief among
the reasons was the revenues were not from qualifying sources. As referenced above,
qualifying sources for payments changed in FY 2009. Nonprofit organizations no longer
qualified as a payment source, only state agencies, political subdivisions of state, and
colleges and universities were qualified sources. Additionally, as described further in
Exhibit I two transactions appear to be fees for services and the services provided were
not for educational or instructional programming. Generally, the documentation


                                             8
provided in support of these transactions was incomplete and not adequate to evaluate
the eligibility of these transactions.

Finally, as previously mentioned we found 22 other transactions in our sample that were
not adequately documented to initially evaluate the eligibility of the transactions. To
illustrate, four transactions tested were from qualifying state and university sources, but
we could not determine the nature of the payment as described in the following table.

              State Revenues Supported with Inadequate Documentation

         Transaction Description          Amount              Documentation Provided

 UNM College of Fine Arts: J.D. Robb
                                            $35,000   Journal entry and program schedule
 Documentary
 UNM College of Fine Arts: J.D. Robb
                                             25,000   Journal entry and program schedule
 Documentary
 New Mexico History Museum (link to PBS               Invoice referencing documentaries completed
                                             30,900
 website)                                             and PBS URL link
 NM Tourism Dept.: Balloon Fiesta
                                             15,000   Copy of state check and program schedule
 Documentary


                    Total                  $105,900


Based on the limited documentation provided, it appeared that these payments were for
underwriting; however, station officials could not adequately explain the nature of the
payments. There were no underlying written agreements between the station and
university department or state agencies to document the nature of these payments.
The journal entries and invoice provided had cryptic descriptions. One transaction
provided a website link to PBS typed on a plain piece of paper and program schedules
were similarly presented.

Further, the station did not have procedures in place to verify that federal funds were
not included in any of these revenues received from the state and university sources.
CPB guidance states that for NFFS purposes federal funds do not lose their federal
identity when passing through an intermediary organization to a public broadcasting
station. While we could not assure ourselves that federal funds were not involved, we
allowed these transactions because they were linked to programs aired on the station
and at least one transaction had web links to PBS. However, more descriptive
documentation is needed to explain the nature and sources of the funding, as well as,
information identifying the amount of any federal funds included in the payment to
permit future verification of the eligibility of the state revenues claimed.




                                             9
       Recommendations

1) We recommend that CPB management require KNME to:

   a) reimburse $112,810 in excess CSG payments made to KNME based on the FYs
      2008 – 2010 reported NFFS; and
   b) submit revised AFRs for FYs 2008 – 2010 eliminating the undocumented and
      unallowable contributions claimed as NFFS.

2) We recommend that CPB management require KNME to:

   a) document corrective actions taken and controls instituted to ensure future
      compliance with CPB reporting guidelines;
   b) institute documentation requirements to support all state and nonprofit revenues
      received (e.g., contract/grant agreements) to address qualifying sources and
      qualifying purposes, including whether revenues are for underwriting or
      payments for services related to educational and instructional programming; and
   c) institute procedures to obtain from state agencies and educational institutions the
      amount of any federal funds included in the payment.

3) We recommend that CPB management revise its indirect cost guidance to ensure
   that PBS dues in excess of $25,000 annually are not included in the direct cost base
   used to calculate indirect costs claimed as NFFS on the AFR, Schedule B.

   Management Response

KNME officials’ strongly disputed this finding and contended that KNMEdid not
overstate NFFS. Specifically, they disagreed with the findings on over-stated indirect
administrative support, inadequately documented trade underwriting revenues, and
unsupported state and college revenues, as follows.

Regarding over-stated indirect administrative support, KNME said the OIG opinion in
effect proposes an adjustment to the federally negotiated indirect cost rate. They
referenced the report which states, “While CPB’s guidelines did not specifically address
adjustment for large payments to third parties for something like PBS dues, such
payments are similar to subgrantee payments.” The university has included PBS dues
in a cost pool along with many other similar costs. There is no basis for the OIG to
isolate PBS dues and treat them differently than any other dues. The OIG’s opinion is
that $692,071 is “over-stated indirect administrative support.” KNME-TV contends that
these funds have been properly included in the administrative support costs calculation
using the University of New Mexico’s federally negotiated indirect costs rate. The OIG
did not audit the university or its processes and is issuing an opinion when it states that,
payments for PBS dues, like payments to sub-grantees, do not receive the same level
of service from the university’s various overhead rates.




                                             10
Regarding inadequately documented trade underwriting, KNME disagreed with the
finding that trade revenues were over-stated by $195,737 because of inadequate
documentation. KNME stated that the CPB guidelines for underwriting do not state
when the documentation should be secured, yet the OIG opinion stated that the
documentation is to be supplied when the goods or services are received. KNME states
that they have secured and retained the documentation as required in the guidelines.

Regarding the unsupported state and college revenues, KNME stated that it only
disagreed with the portion of the findings dealing with the University of New Mexico F&A
Return (Facilities and Administrative Return – sometimes referred to as indirect cost –
NFFS amount of $44,869.) The university receives funding from many sources,
including recovered F&A costs from grants and contracts, which are unrestricted
revenues to the university when received. It is the university’s decision, not the granting
agency, of how to and to whom funds will be allocated. For the period under audit, the
university chose to allocate $44,869 from all of the funds available to KNME for use in
supporting its mission. Because KNME is a department of the university, funds are
transferred by journal entries rather than issuing checks internally. The auditors
requested and received a copy of the journal entry and the backup to the journal entry,
which merely indicated how the university determined the amount of the allocation.
KNME contends that the NFFS of $44,869 has been properly reported as state and
college revenues and is properly documented.

KNME’s response disagreed with the findings and did not specifically address
recommendations 1 and 2.

   OIG Review and Comment

Based on KNME’s response we consider recommendations 1 and 2 unresolved pending
CPB’s management decision. Our evaluation of KNME’s response by finding type is
presented below. Recommendation 3 was directed to CPB management and is
unresolved pending CPB’s management decision.

Regarding the disputed over-stated indirect administrative support finding, we do not
agree with KNME’s response because the federally approved indirect rate, established
by the Department of Health and Human Services, recognized the need to adjust the
direct base for sub-contractor expenses that exceed $25,000 a year. Our finding did not
adjust the federally negotiated indirect cost rate as KNME contends. We applied the
provision in the approved rate that required the university to exclude sub-contractor
expenses that exceed $25,000 in its direct base. We see little distinction between
payments to sub-contractors and payments to PBS, which both increase the direct base
used to claim indirect administrative support. As a result our finding on over-stated
NFFS of $692,071 remains unchanged.

Regarding the inadequately documented trade underwriting finding, we do not agree
with KNME’s interpretation of the CPB NFFS guidelines. We believe that NFFS
guidelines clearly require donors to document in-kind contributions provided, the date(s)
of donation, and the method of valuation. The documentation presented during our

                                            11
audit fieldwork and KNME’s response to the draft report did not fully satisfy these
requirements. Further, we believe the NFFS guideline requires grantees to obtain
contemporaneous documentation from donors to document that the in-kind
contributions have been received. Specifically, the guidelines require grantees to
secure and retain documentation from the donor that is tantamount to a receipt for the
goods and services received. As a result, our finding on over-stated NFFS of $195,737
remains unchanged.

Regarding the unsupported state and college revenues finding, we do not agree with
KNME’s position relative to the allowability of the $44,869 claimed as unrestricted funds
received from the university and referenced as Facilities and Administrative (F&A)
Return. As explained in Exhibit I, we questioned the $44,869 because the sources of
these funds were public broadcasting organizations. These funds were recouped from
public broadcasting sources for indirect costs claimed by the university from these
grantors during calendar years 2005 – 2006. As a result, our finding on over-stated
NFFS of $171,218 remains unchanged.


Ineligible CSG Expenditures

Our examination of CSG expenditures found $18,000 in questionable costs for services
that did not augment the station’s capability to expand the quality and scope of its
services. These costs were incurred to pay a penalty to terminate a contract early.
Station officials explained that the penalty payment was warranted because it was cost
beneficial to terminate the contract.

Per section 3 of the FY 2010 Television Community Service Grant General Provisions
and Eligibility Criteria, funds have to be “used to augment the capability of public
broadcast stations supported by CPB to expand the quality and scope of their services
to the community.” Section 5b of the same document states, “CSG funds shall be
expended only in accordance with the purposes and restrictions set forth in these
general provisions and eligibility criteria and other similar restrictions to be determined
by CPB policy decisions from time to time… The amounts of all unauthorized
expenditures shall be fully repaid to CPB immediately upon CPB’s request.”

We found that KNME did not notify a contractor of its intent to cancel a contract they
had for subscription index services, at least 120 days prior to the end of the fiscal year.
As a result, KNME could not be released from its contract without penalty. The
contractor gave the station the option to incur a penalty of $18,000 – approximately 3
months billing – to be released from the contract or complete the contract and incur
another $35,987 in expenditures. KNME decided to terminate the contract.

Expending CPB funds on contract termination penalties did not augment the capability
of public broadcasting stations to expand the quality of its services to its community. As
a result, we have questioned the $18,000 expenditure.



                                             12
      Recommendation

4) We recommend that CPB management require KNME to reimburse the $18,000
   expense charged to the CSG grant.

   Management Response

KNME’s response disagreed with this finding. They contend that the $18,000 payments
were their reduced cost for the service for the last three months of the contract. KNME
also said that by saving $35,987, KNME was able to “augment the station’s capability to
expand the quality of its services to its community in compliance with grant
requirements.”

As background KNME officials said that when the economy collapsed in 2008, KNME
underwent a rescission of state funds, the cancellation of a large contract with the City
of Albuquerque for services, and many other cuts to its revenues. The station took
corrective actions to reduce its costs, including cancelling a contract with the Nielsen
Company for rating services. The station gave Nielsen a ninety day notice to cancel the
contract and made three monthly payments of $6,000 as required by Nielsen. By
cancelling the contract the station realized savings of $35,987.

   OIG Review and Comment

Based on KNME’s response we consider recommendation 4 unresolved pending CPB’s
management decision. We do not agree that using CPB funds to pay a cancellation fee
to the contractor was the best use of CPB grant funds to augment the station’s
capability to expand the quality of its services. Our review of the “Direct Pay Approval
Form,” referred to the transaction as a “Settlement fee for contract cancellation.” The
supporting records also contained a letter prepared by the KNME Accounting Manager
stating “Because notice was not given at least 120 days (contract requirement) prior to
the end of the fiscal year, KNME could not cancel without penalty.” As a result, our
questioned costs of $18,000 remain unchanged.


Incorrect Reporting of Revenues

Our review of the FY 2010 AFR found that KNME incorrectly reported the CPB Fiscal
Stabilization grant of $89,232 on its AFR as federal funds. Additionally, other non-profit
organizations revenues of $120,730 were incorrectly reported as state revenues.

The reporting guidelines for the Fiscal Stabilization grant, communicated to the grantees
via e-mail, explicitly described grantees’ responsibility for AFR reporting. This guidance
instructed stations to report this revenue on their FY 2010 AFR, Schedule A, Line 2.E,
CPB – all other funds. These funds were reported on Schedule A, Line 1F as Federal –
American Recovery and Reinvestment funds (ARRA) funds, as opposed to Line 2E.



                                            13
Additionally, we identified revenues from three non-profit organizations that were
incorrectly reported as state revenues. Two of these transactions were questioned in
Exhibit I. The third transaction met NFFS criteria for reporting on Schedule A, Line 8 as
revenue from a foundation or nonprofit association.

In response to this finding KNME officials provided us with an e-mail from CPB Grants
Administration concerning the reporting of ARRA funds. The e-mail instructed KNME to
report ARRA funds on Schedule A, Line 1.F; however, CPB’s Fiscal Stabilization funds
were not related to ARRA. CPB did not receive or distribute any ARRA funds from the
federal government.

For the eligible revenues reporting these funds on the incorrect Schedule A line did not
impact the total amount claimed as NFFS, however, it did not accurately report the
funding sources on the FY 2010 AFR.

      Recommendation

5) We recommend that CPB management require KNME to correctly report its FY 2010
   Fiscal Stabilization grant and nonprofit revenues on the revised AFRs recommended
   in recommendation 1b and ensure future NFFS revenue reporting meets CPB
   requirements as recommended in recommendation 1c.

      Management Comments

KNME’s response did not dispute this finding and acknowledged that the revenue was
inadvertently reported on the wrong line of the AFR. Because the revenues were
properly excluded from eligible NFFS, reopening the FY 2010 AFR to make a line
change would have no impact on the NFFS for that year, not the resulting CSG, and is
not warranted.

      OIG Review and Comment

Based on KNME’s response we consider recommendation 5 unresolved, pending
CPB’s management decision. KNME’s response did not address corrective actions to
ensure future AFRs properly report CPB and other non-profit revenues as required by
the NFFS reporting guidelines.


Noncompliance with the Communications Act

Our examination found that KNME was not in full compliance with open meeting
requirements of the Act and CPB Certification Requirements for Station Grants
Recipients. Further, KNME had not established operating procedures to document how
it complied with the various Communications Act requirements. In response to this
finding, KNME officials said they were not completely aware of the various statutory
requirements of the Act, including the requirement to prepare documentation to inform

                                           14
the public of what information is available for review and the methods they should use to
obtain this information. KNME officials acknowledged the need to comply with these
requirements and agreed to develop procedures that comply with the Act’s
requirements.

       Open Meetings

Our examination of compliance with open meeting requirements found that adequate
advance notice of Board of Directors meetings was not documented to verify that 7 days
advance notice was given to the public. Further, state officials stated that no on-air
announcements had been made explaining the station’s open public meetings policies.

Section 396(k)(4) of the Act (47 U.S.C. §396(k)(4)) prohibits the distribution of federally
appropriated funds to the licensee of a public broadcasting station unless the governing
body of the organization, any committees of such governing body, or any advisory body
of any such organization holds open meetings preceded by reasonable notice to the
public.

The minimum compliance requirements for “reasonable notice” to the public as stated in
CPB’s explanation of the Act requires stations to “give reasonable notice to the public of
the fact, time and place of an open meeting at least one week (7 days) in advance of
the scheduled date . . . .” CPB’s explanation of the Act requires stations to provide
three types of notice.

       1. Notice placed in the "Legal Notices" or the radio and television
          schedules section of a local newspaper in general circulation in the
          station's coverage area; or, notice is available through a recorded
          announcement that is accessible on the station's phone system; or,
          notice is available through an announcement that is accessible on
          the station's web page.

       2. Notice communicated by letter, e-mail, fax, phone, or in person to
          any individuals who have specifically requested that they be notified.

       3. On-air announcements on at least three consecutive days once
          during each calendar quarter that explain the station's open meeting
          policy and provides information about how the public can obtain
          information regarding specific dates, times, and locations.

Station officials informed us that a notice is placed in the lobby area to announce
upcoming board meetings. No other methods were used to announce the public
meetings. We could not verify that adequate advance notice was given to the public
because at the time of our fieldwork a notice had not been posted in the lobby
announcing the next board meeting.




                                            15
The station’s lack of compliance with the open meeting requirements deprives the public
of the required information envisioned by the Act.

       Documenting Compliance with Requirements

Our examination found that KNME had not established written policies and procedures
to ensure its compliance with the Acts requirements for public meetings, open financial
records, EEO records, and donor information. As previously mentioned, the station did
not fully comply with open meeting requirements. The lack of policies contributed to its
noncompliance. Further, while the station was able to retrieve the financial and EEO
information from its databases for our audit to meet open records requirements, the
station did not have documented procedures in place to provide operating guidance for
staff to follow to achieve compliance with the various Act requirements.

CPB’s Certification Requirements for Station Grant Recipients provide guidance to
establish written procedures addressing, open meetings, open financial records, EEO,
and donor list and political activities requirements. Each recipient of a CPB station
grant shall develop documentation explaining how the station complies with these
requirements.

This documentation should address the procedures for conducting open meetings and
the methods used to give reasonable notice to the public; the types of financial and
EEO information to be made available to the public, including the mechanisms used to
give the public access to this information; and political activity restriction requirements.
This documentation shall be kept by each station at a reasonable location and made
available to CPB, upon request, to determine the fact and extent of compliance with
these requirements.

Such procedures should specify how the station actually goes about complying with
each of the four sections of the certification requirements. These procedures not only
provide operating guidance for station officials, but also provide the public with
information about how the station complied with these grant requirements.

       Recommendations

6) We recommend that CPB require KNME management to fully comply with all
   requirements of the Act and provide CPB with documentation of its compliance with
   the following requirements over the next fiscal year:

   a) Document that 7 days advance notice is given to the public of upcoming
      meetings of the Board of Directors.
   b) Make on-air announcements for at least three consecutive days once each
      calendar quarter that explain the station’s open meeting policy and provide
      information on how the public can obtain information regarding specific dates,
      times, and locations of public meetings. Maintain documentation of station on-air
      announcements aired, including the date and time of each announcement.


                                             16
c) Establish written implementing policies on the station’s practices for all of the
   Act’s requirements, including open meetings; maintaining open financial records;
   making EEO information available to the public; and maintaining and protecting
   donor information (pledge donor cards) addressing CPB’s minimum compliance
   requirements.

   Managements Response

KNME’s response did not dispute this finding. KNME took corrective action at its
December 13, 2011, KNME board meeting to adopt an Open Meetings Policy and
Open Records Policy as detailed in their written response provided in Exhibit K.
Further, they implemented quarterly on-air announcements running at least three
consecutive days explaining its open meeting policy and how to obtain information
on its next public meeting.

   OIG Review and Comments

Based on KNME’s response, we consider recommendations 6 a-b resolved but open
             pending CPB’s acceptance of KNME’s corrective actions. We consider
recommendation 6c unresolved pending development and implementation of written
    policies addressing EEO information available to the public and maintaining and
                                                       protecting donor information.




                                       17
                                                                                                  Exhibit A

                       Schedule of CPB Payments to KNME-TV
                                    July 1, 2007 - June 30, 2010

                    Grant                        Grant Amount            Payment             Payment Date

RTLL II Ready to Lead in Literacy                    $40,000.00
                                                                                $16,000            6/25/2008
                                                                                 $1,500            1/22/2009
FY 2008 TV Community Service Grant               $1,000,694.00
                                                                               $508,341           11/16/2007
                                                                               $492,353            6/10/2008
FY 2008 TV Interconnection Grant                     $21,155.00
                                                                                $10,664           11/16/2007
                                                                                $10,491            6/10/2008
FY 2008 TV Distance Service Grant                    $33,000.00
                                                                                $33,000           11/15/2007
PAI Pilot Station Program                            $20,000.00
                                                                                $10,000             3/6/2008
                                                                                $10,000            2/12/2009
FY 2009 TV Community Service Grant                 $994,323.00
FY 2009 TV Interconnection Grant                    $20,420.00
FY 2009 TV Distance Service Grant                   $33,000.00
                                                                               $540,372              1/6/2009
                                                                               $507,371              3/9/2009
DDF Round 12b                                         $4,500.00
                                                                                 $2,250            5/15/2009
                                                                                 $2,250             5/7/2010
DTV Transition Grant                                 $25,466.67
                                                                                $25,467            5/19/2009
FY 2010 TV Community Service Grant               $1,135,734.00
FY 2010 TV Interconnection Grant                    $22,652.00
                                                                               $579,193            11/5/2009
                                                                               $579,193            2/24/2010
FY 2010 TV Distance Service Grant                    $46,200.00
                                                                                $46,200            11/9/2009
Fiscal Stabilization Grant                           $89,232.38
                                                                                $89,232            1/13/2010
My Source Funds                                             $500
                                                                                   $500               4/14/10
2010 Innovation Award                                      $3,000
                                                                                 $3,000               5/13/10

        CPB Total Cash Payments                                              $3,467,377

Note: CPB cash receipts are recognized as revenues when they are expended. As a result, Exhibit A cash receipts
                         were not necessarily reported as revenue on the AFR (Exhibits B-D) In the year received.



                                                      18
                                                                              Exhibit B

                       KNME-TV Annual Financial Report
                               Year Ending June 30, 2008

       Schedule A, Source of Income:                                           FY 2008
1.     Amounts provided directly by federal government agencies                   $7,769
2.A.   CPB - Community Service Grants                                           856,927
2.D.   CPB - TV Interconnection grants                                            42,537
2.E.   CPB - all other funds                                                      98,750
       PBS - all payments except copyright royalties and other pass-through
2.F.   payments                                                                   17,149
2.H.   Public broadcasting stations - all payments                                77,533
3.     Local boards and departments of education                                 444,558
4.     State boards and departments of education                               1,398,711
5.     State colleges and universities                                           269,383
6.     Other state-supported colleges and universities                           115,744
7.     Private colleges and universities                                             191
8.     Foundations and nonprofit associations                                      9,290
9.     Business and industry                                                   1,519,613
10.    Memberships and subscriptions                                           2,306,041
15.    Passive Income                                                             37,598
17.    Endowment Revenue                                                          78,731
18.    Capital fund contributions                                              1,769,916
19.    Gifts and bequests from major individual donors                           273,657
20.    Other Direct Revenue                                                       12,122
21.                                    Total Revenue                          $9,336,220

       Adjustments to Revenue:
22.    Federal revenue from Line 1                                                $7,769
23.    Public broadcasting revenue from Line 2                                 1,092,896
24.    Capital funds exclusion (from line 18a) - TV only                       1,769,916
25.    Other revenue on Line 21 not meeting criteria to be included as NFFS      965,424
26.    Other automatic subtractions from total revenue                             1,859
27.                    Total Direct Nonfederal Financial Support              $5,498,356




                                               19
                                                                   Exhibit B (cont.)

                   KNME-TV Annual Financial Report
                            Year Ending June 30, 2008

       Schedule B Worksheet                                              FY 2008
1a.    Total station operating expenses (Sch. E, Line 10)                $9,699,232
1b.1   Capital outlays (Sch. E, Line 9)                                     $16,378
1b.2   Depreciation                                                        $755,517
1b.3   Amortization                                                         $39,850
1b.4   In-kind contributions                                                $45,006
1b.5   Indirect administrative support                                   $1,703,179
1b.6   Donated property and equipment                                            $0
1b.7   Other                                                               $269,383
1b.8   Total deductions                                                  $2,829,313
1c.    Station net direct expenses                                       $6,869,919
2c.    Modified cost rate                                                   24.04%
4.                              Total indirect support                   $1,651,528

       Schedule B, Indirect Administrative Support
1.     Total support activity benefitting station                        $1,651,528
2.     Occupancy value                                                           $0
3.     Deductions: Fees paid to licensee for overhead                       $14,300
4.     Deductions: Support in excess of revenue                                  $0
5.                    Total Indirect Administrative Support              $1,637,228

       Schedule C, In Kind Contributions of Services and Other Assets:
4.     Total in-kind contributions - eligible as NFFS                        17,484
5.     In-kind Contributions Ineligible as NFFS                              27,522
6.           Total In-kind Contributions - services and other assets        $45,006

       Schedule E, Expenses & Investment in Capital:
       Program Services
1.     Programming and production                                        $2,662,408
2.     Broadcasting and engineering                                       1,252,834
3.     Program information and promotion                                    492,517
       Support Services
4.     Management and general                                             2,933,856
5.     Fundraising and membership                                         1,299,838
6.     Underwriting and grant solicitation                                  285,884
7.     Depreciation and amortization                                        755,517
8.                                Total Expenses                         $9,682,854
9.     Total capital assets purchased or donated                             16,378
10.            Total Expenses and Investment in Capital Assets           $9,699,232




                                           20
                                                                              Exhibit C

                       KNME-TV Annual Financial Report
                                Year Ending June 30, 2009

       Schedule A, Source of Income:                                          FY 2009
1.     Amounts provided directly by federal government agencies                  $4,625
2.A.   CPB - Community Service Grants                                           942,534
2.D.   CPB - TV Interconnection grants                                           21,155
2.E.   CPB - all other funds                                                     85,375
       PBS - all payments except copyright royalties and other pass-through
2.F.   payments                                                                   51,812
2.H.   Public broadcasting stations - all payments                                89,042
2.I.   Other PBE funds                                                            13,200
3.     Local boards and departments of education                                 288,934
4.     State boards and departments of education                               1,601,653
5.     State colleges and universities                                           430,076
6.     Other state-supported colleges and universities                            35,554
7.     Private colleges and universities                                              29
8.     Foundations and nonprofit associations                                     82,683
9.     Business and industry                                                   1,557,235
10.    Memberships and subscriptions                                           2,152,904
15.    Passive Income                                                             50,502
17.    Endowment Revenue                                                       (218,626)
19.    Gifts and bequests from major individual donors                           230,178
20.    Other Direct Revenue                                                       81,562
21.                                    Total Revenue                          $7,500,427

       Adjustments to Revenue:
22.    Federal revenue from Line 1                                                $4,625
23.    Public broadcasting revenue from Line 2                                 1,203,118
25.    Other revenue on Line 21 not meeting criteria to be included as NFFS    1,109,784
26.    Other automatic subtractions from total revenue                         (233,716)
27.                    Total Direct Nonfederal Financial Support              $5,416,616




                                               21
                                                                   Exhibit C (cont.)

                   KNME-TV Annual Financial Report
                            Year Ending June 30, 2009

       Schedule B Worksheet                                               FY 2009
1a.    Total station operating expenses (Sch. E, Line 10)                $10,354,109
1b.1   Capital outlays (Sch. E, Line 9)                                     $223,680
1b.2   Depreciation                                                         $757,676
1b.3   Amortization                                                          $39,850
1b.4   In-kind contributions                                                $104,479
1b.5   Indirect administrative support                                    $1,693,665
1b.6   Donated property and equipment                                             $0
1b.7   Other                                                                $430,076
1b.8   Total deductions                                                   $3,249,426
1c.    Station net direct expenses                                        $7,104,683
2c.    Modified cost rate                                                    24.04%
4.                             Total Indirect Support                     $1,707,965

       Schedule B, Indirect Administrative Support
1.     Total support activity benefitting station                         $1,707,965
2.     Occupancy value                                                            $0
3.     Deductions: Fees paid to licensee for overhead                        $14,300
4.     Deductions: Support in excess of revenue                                   $0
5.                    Total Indirect Administrative Support               $1,693,665

       Schedule C, In Kind Contributions of Services and Other Assets:
4.     Total in-kind contributions - eligible as NFFS                        94,980
5.     In-kind Contributions Ineligible as NFFS                               9,500
6.           Total In-kind Contributions - services and other assets       $104,480

       Schedule E, Expenses:
       Program Services
1.     Programming and production                                         $2,827,740
2.     Broadcasting and engineering                                        1,226,950
3.     Program information and promotion                                     639,247
       Support Services
4.     Management and general                                              3,018,902
5.     Fundraising and membership                                          1,412,392
6.     Underwriting and grant solicitation                                   247,522
7.     Depreciation and amortization                                         757,676
8.                                Total Expenses                         $10,130,429
9.     Total capital assets purchased or donated                             223,680
10.            Total Expenses and Investment in Capital Assets           $10,354,109




                                           22
                                                                              Exhibit D

                       KNME-TV Annual Financial Report
                                Year Ending June 30, 2010

       Schedule A, Source of Income:                                          FY 2010
1.A.   PTFP (NTIA) Facilities Grants                                            $78,024
1.F.   Other Federal Funds (specify) - ARRA, USAF, Sandia                       $89,986
2.A.   CPB - Community Service Grants                                         1,056,315
2.D.   CPB - TV Interconnection grants                                           20,420
2.E.   CPB - all other funds                                                     65,967
       PBS - all payments except copyright royalties and other pass-through
2.F.   payments                                                                   41,227
2.H.   Public broadcasting stations - all payments                               119,215
2.I.   Other PBE funds                                                            13,358
3.     Local boards and departments of education                                 213,959
4.     State boards and departments of education                               1,273,991
5.     State colleges and universities                                           185,283
6.     Other state-supported colleges and universities                            39,383
8.     Foundations and nonprofit associations                                     78,210
9.     Business and industry                                                   1,494,319
10.    Memberships and subscriptions                                           2,269,200
15.    Passive Income                                                             27,314
17.    Endowment Revenue                                                         111,279
19.    Gifts and bequests from major individual donors                           530,087
20.    Other Direct Revenue                                                       74,175
21.                                    Total Revenue                          $7,781,712

       Adjustments to Revenue:
22.    Federal revenue from Line 1                                             $168,010
23.    Public broadcasting revenue from Line 2                                 1,316,502
25.    Other revenue on Line 21 not meeting criteria to be included as NFFS      948,729
26.    Other automatic subtractions from total revenue                            99,632
27.                    Total Direct Nonfederal Financial Support              $5,248,839




                                               23
                                                                   Exhibit D (cont.)

                   KNME-TV Annual Financial Report
                            Year Ending June 30, 2010

       Schedule B Worksheet                                              FY 2010
1a.    Total station operating expenses (Sch. E, Line 10)                $9,347,450
1b.1   Capital outlays (Sch. E, Line 9)                                    $336,969
1b.2   Depreciation                                                        $762,663
1b.3   Amortization                                                         $39,850
1b.4   In-kind contributions                                               $110,874
1b.5   Indirect administrative support                                   $1,521,847
1b.6   Donated property and equipment                                            $0
1b.7   Other                                                               $185,283
1b.8   Total deductions                                                  $2,957,486
1c.    Station net direct expenses                                       $6,389,964
2c.    Modified cost rate                                                   24.04%
4.                              Total indirect support                   $1,536,147

       Schedule B, Indirect Administrative Support
1.     Total support activity benefitting station                        $1,536,147
2.     Occupancy value                                                           $0
3.     Deductions: Fees paid to licensee for overhead                       $14,300
4.     Deductions: Support in excess of revenue                                  $0
5.                    Total Indirect Administrative Support              $1,521,847

       Schedule C, In Kind Contributions of Services and Other Assets:
4.     Total in-kind contributions - eligible as NFFS                       83,274
5.     In-kind Contributions Ineligible as NFFS                             27,600
6.           Total In-kind Contributions - services and other assets      $110,874

       Schedule E, Expenses:
       Program Services
1.     Programming and production                                        $2,479,314
2.     Broadcasting and engineering                                       1,281,534
3.     Program information and promotion                                    482,066
       Support Services
4.     Management and general                                             2,595,351
5.     Fundraising and membership                                         1,189,654
6.     Underwriting and grant solicitation                                  219,899
7.     Depreciation and amortization                                        762,663
8.                                Total Expenses                         $9,010,481
9.     Total capital assets purchased or donated                            336,969
10.            Total Expenses and Investment in Capital Assets           $9,347,450




                                           24
                                                                 Exhibit E

 KNME-TV Summary of Non-Federal Financial Support FY 2008
  Certification by Head of Grantee and Independent Accountant's Report

 Line                          Description                    FY 2008

        Summary of Non-Federal Financial Support:
1.      Direct Revenue (Schedule A)                            $5,498,356
2.      Indirect Administrative (Schedule B)                    1,637,228
3.      In-Kind Contributions (Schedule C)
3.a       Services and Other Assets (Schedule C)                   17,484
3.b       Property and Equipment (Schedule D)                           0
4.      Total Non-Federal Financial Support                    $7,153,068




                                       25
                                                                 Exhibit F

 KNME-TV Summary of Non-Federal Financial Support FY 2009
  Certification by Head of Grantee and Independent Accountant's Report

 Line                          Description                    FY 2009

        Summary of Non-Federal Financial Support:
1.      Direct Revenue (Schedule A)                            $5,416,616
2.      Indirect Administrative (Schedule B)                    1,693,665
3.      In-Kind Contributions (Schedule C)
3.a       Services and Other Assets (Schedule C)                   94,980
3.b       Property and Equipment (Schedule D)                           0
4.      Total Non-Federal Financial Support                    $7,205,261




                                       26
                                                                 Exhibit G

 KNME-TV Summary of Non-Federal Financial Support FY 2010
  Certification by Head of Grantee and Independent Accountant's Report


 Line                          Description                    FY 2010

        Summary of Non-Federal Financial Support:
1.      Direct Revenue (Schedule A)                            $5,248,839
2.      Indirect Administrative (Schedule B)                    1,521,847
3.      In-Kind Contributions (Schedule C)
3.a       Services and Other Assets (Schedule C)                   83,274
3.b       Property and Equipment (Schedule D)                           0
4.      Total Non-Federal Financial Support                    $6,853,960




                                       27
                                                                                                  Exhibit H
                        Schedule of Claimed In-kind Contributions
     Trades/Donations          FY 2008    FY 2009     FY 2010                Inadequate Documentation
Donor A                        1,141.67                           Trade agreement without signature
Donor B                                    5,200.00               Signed agreement without description of services
Donor C                                                1,250.00   Signed agreement without description of services
Donor D                                    1,800.00               Trade agreement without signature
Donor E                        1,750.00                           No evidence items were received
Donor F                                                1,300.00   No evidence items were received
Donor G                                   16,015.00               No evidence items were received
Donor H                                    4,000.00               Email without donor signature
Donor I                                                2,534.39   Signed agreement without description of services
Donor J                                    1,500.00               Email without donor signature
Donor K                                    2,000.00               Hotel invoice without explanation
Donor L                                                9,712.50   Trade agreement without signature
Donor M                        2,250.00    7,750.00               Trade agreement without signature
Donor M                                    5,000.00    5,000.00   Trade agreement without signature
Donor N                        1,581.25                           Trade agreement without signature
Donor N                                    3,500.00               No evidence items were received
Donor N                                                3,686.00   Trade agreement without signature
Donor O                                                2,800.00   Signed agreement without description of services
Donor P                        9,040.40                           Trade agreement without signature
Donor P                                    6,198.24   16,581.76   No documentation
Donor P                                   12,656.60               Trade agreement without signature
Donor Q                        1,720.00                           Trade agreement without signature
Donor R                                                2,500.00   Signed agreement without description of services
Donor S                                    3,700.00    1,300.00   Trade agreement without signature
Donor T                                   24,960.00               Trade agreement without signature
Donor T                                               24,266.00   Signed agreement without description of services
Donor U                                                2,524.95   Signed agreement without description of services
Donor V                                                4,090.86   Signed agreement without description of services
Donor W                                                  800.00   Signed agreement without description of services
Donor X                                     700.00                Email without donor signature
Donor Y                                                4,927.60   Trade agreement without signature

  NFFS - AFR sch. C, Line 4:    $17,483    $94,980     $83,274




                                                      28
                                                                                                       Exhibit I

             Ineligible and Inadequately Documented State Revenues

     Transaction              NFFS
                                                      Explanation for Questioning Transaction
     Description             Amount
FY 2008

No transaction description       $650   No documentation provided to support claim

                                        Ineligible Source: Documentation identified public broadcasting sources for
The University of New
                               44,869   the funding, the university redistributed funds received from public
Mexico: F&A Return
                                        broadcasting sources for indirect costs recouped under prior periods
FY 2009
The University of New
                                        Ineligible Purpose: Documentation incomplete - appears to be fee for
Mexico: Project Echo            7,514
                                        services but not for educational or instructional programming
Recruitment Video
                                        Ineligible Source: Documentation incomplete - private nonprofit
Foundation A: Exhibition
                              114,434   organization is not qualifying state source and appears to be fee for
Videos
                                        services
The University of New
                                        Duplicate Claim: Electric utilities for Sandia Crest facility were also claimed
Mexico: Sandia Crest,           1,400
                                        on Schedule A, Line 5 of the AFR
Media Tech
FY 2010
                                        Ineligible Source: Documentation incomplete - private nonprofit
Foundation B                    1,229   organization is not qualifying state source and appears to be fee for
                                        services
The University of New                   Ineligible Purpose: Documentation incomplete - appears to be fee for
Mexico: Office of               1,122   services but not for educational or instructional programming (equipment
Institutional Advancement               rental)
          Total              $171,218




                                                      29
                                                                               Exhibit J

                          SCOPE AND METHODOLOGY
We performed this audit as a compliance attestation examination under the Government
Auditing Standards. Our objectives were to determine whether KNME reported NFFS in
accordance with CPB’s Guidelines; complied with Certification of Eligibility requirements
and selected provisions of the Communications Act of 1934, as amended; and spent
grant funds in accordance with grant terms. We performed our audit field work during
the period October 2011 through April 2012.

The scope of the audit included tests of the AFR, Schedules A, B and C, and the data
reported on them for the fiscal years ended June 30, 2008, 2009, and 2010 for the
period July 1, 2007 through June 30, 2010. We tested $5,039,453 of the $21.2 million
of NFFS claimed on KNME’s AFRs by performing financial reconciliations and
comparisons to underlying accounting records and the audited financial statements to
verify transactions recorded in the general ledger and reported on the AFRs. We
evaluated compliance with CPB Guidelines, in part, by reviewing source documentation
for cash receipts, donations, trade underwriting agreements, and state revenue. We
judgmentally sampled NFFS revenues selecting large transactions from high risk
revenue categories.

We tested $2,576,532 of $3,559,791 (72.4 percent) CPB expenditures. The bulk of the
grant funds were spent on dues/memberships costs. Our judgmental samples focused
on larger transactions, including other operating costs to determine compliance with
grant agreement terms.

We reviewed documentation of KNME’s compliance with Communications Act
requirements. Specifically, we reviewed meeting minutes of the KNME’s Board of
Directors, public meeting announcements, financial information made available to the
public, Equal Employment Opportunity (EEO) reports, and donor list and political
activities requirements. Additionally, we interviewed KNME staff to identify station
operations relating to Act compliance.

To assist in our audit planning and assure ourselves that we could rely on the work
performed by KNME’s independent public accountant (IPA), we met with
representatives of the firm that conducted the financial statement audit and attestation
work on the AFRs. We reviewed the firm’s work papers documenting tests of internal
controls and its fraud risk assessment analysis. For the attestation review, we also
reviewed test work performed by the IPA on the accuracy of KNME’s AFRs.

We gained an understanding of KNME’s internal controls over the preparation of the
AFRs and cash receipts as part of our overall risk assessment by interviewing
accounting staff and reviewing worksheets used to calculate NFFS. We used this
understanding to plan our audit work and select those areas that posed the greatest risk
to the accurate reporting of NFFS.

                                            30
                  AUDIT REPORT
                 NO. AST1106-1205



Exhibits A-1, A-2, B, and C referenced in the response
     from KNME-TV are available upon request.



                Contact our office at:

                    202.879.9669

                         or

        Corporation for Public Broadcasting
            Office of Inspector General
               401 Ninth Street, NW
                        3rd flr
              Washington, DC 20004
